No. 21-194
IN THE

Supreme Court of the United States
CALIFORNIA TRUCKING ASSOCIATION, INC.;
RAVINDER SINGH; AND THOMAS ODOM,
Petitioners,
v.
ROBERT BONTA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 10th day of September, 2021, I caused three copies of the Brief for the
Chamber of Commerce of the United States of America as Amicus Curiae in Support of
Petitioners to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Charles Rothfeld
MAYER BROWN LLP
1999 K Street, N.W.
Washington, D.C. 20006
(202) 263-3233
crothfeld@mayerbrown.com
Counsel for Petitioners

Samuel Thomas Harbourt
CALIFORNIA DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102
(415) 510-3919
samuel.harbourt@doj.ca.gov
Stacey Leyton
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
sleyton@altber.com
Counsel for Respondents

/s/ Theane Evangelis
Theane Evangelis

2

